                                      —

Department of Health and Human Services

         OFFICE OF
   INSPECTOR GENERAL




 BENEFICIARY PERSPECTIVES OF
     MEDICARE RISK HMO’S
                       OFFICE       OF INSPECTOR            GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department    of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs.     This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components:        the Office of Audit Services, the
Office of Investigations,  and the Office of Evaluation and Inspections.   The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                           OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provi~es all auditing semices for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance     of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations’ in order to reduce waste, abuse, and
mismanagement     and to promote economy and efficiency throughout      the Department.

                           OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations     (01) conducts criminal, civil, and administrative

investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of

unjust enrichment by providers.    The investigative efforts of 01 lead to criminal convictions,

administrative sanctions, or civil money penalties.  The 01 also oversees State Medicaid fraud

control units which investigate and prosecute fraud and patient abuse in the Medicaid program.


               OFFICE      OF EVALUATION               AND INSPECT-IONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management             and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations      contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental   programs. This report was prepared in the Dallas regional
office under the direction of Ralph Tunnell, Regional Inspector General and Chester B.
Slaughter, Deputy Regional Inspector General.     Project staf~

REGION                                                                 HEADQUARTERS

Michelle Adams                         Pamela Smith                    Hugh Hetzer
Leah Bostick                           Sarah Taylor                    Mark Krushat
George DeLuna                          Judith Tyler                    Brian Ritchie
Kevin Golladay                         Nancy Watts                     Barbara Tedesco
Carolyn Neuwirth
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 BENEFICIARY PERSPECTIVES         OF
      MEDICARE RISK HMOS
                       EXECUTIVE                           SUMMARY

PURPOSE

This study describes   beneficiaries’   perspectives       of the Medicare risk HMO experience.


BACKGROUND AND METHODOLOGY

Medicare beneficiaries may join a risk health maintenance  organization (HMO) through
the Medicare program.    Under a risk contract, Medicare pays the HMO a predetermined
monthly amount (capitated rate) per enrolled beneficiary. In return, excepting hospice
care, the HMO must provide all Medicare covered services that are medically necessary.
Once enrolled, beneficiaries are usually required to use HMO physicians and hospitals
(lock-in) and to obtain prior approval from their primary care physicians for other than
primary care.

As of July 1, 1994, the Health Care Financing Administration (HCFA) reported 136 risk-
based HMO plans served 2,036,279 Medicare enrollees. The Office of Managed Care
within HCFA has oversight responsibility for Medicare risk contracts with HMOS.

Using HCFA databases, we selected a stratil%d, random sample of 4,132 enrollees and
disenrollees from 45 Medicare risk HMOS. Since our primary focus is Medicare
beneficiaries’ perceptions of their risk HMO experience, we collected information directly
from beneficiaries in 1993. We surveyed both enrollees and disenrollees to compare their
responses, and thus, to gain greater insight into HMO issues. We did not attempt to
validate their responses through record review or HMO contact.


FINDINGS

Generally, beneficiary responses indictie Medicare risk HMOS provided adequtie service
access for most beneficiaries who had joined.

The majority of enrollees and disenrollees reported medical care that maintained or
improved their health, timely appointments for primary and specialty care, good access to
Medicare covered services and to hospital, specialty and emergency care, and sympathetic
personal treatment by their HMOS and HMO doctors. In some instances, however,
enrollees and disenrollees differed markedly in reporting their HMO experiences.


Beneficiary responses indicate Medicare risk HMOS generally adhered to Federal
enrollment standards for informing benejician”es about applicah”onprocedures, lock-in
and pn”or approval for specialty care.



                                                       i
However, compliance with Federal enrollment stan&rdsfor health screening and
informing benejician”es of their appeal n“ghtsappeared to be problemah”c.

  �	   43% of beneficiaries, who could remember, said they were asked at application
       about their health problems, excluding kidney failure and hospice care; 3 % were
       required to have a physical examination before joining the HMO.

  �	   25% of beneficiaries reported they did not know they had the right to appeal their
       HMOS’ refusal to provide or pay for services.


Most beneficiaries reported timely doctor appointments for primary and specialty care,
but some enrollees and disenrollees experienced notewotihy delays.

  �	   94% of enrollees and 85% of disenrollees got an appointment within 1 to 2 days
       when they believed they were very sick.

  �	   Over 75% of beneficiaries usually waited 8 days or less for appointments with
       primary doctors and about two-thirds usually waited the same for appointments with
       specialists; however, 16% waited for 13 days or longer for a primary care visit and
       25% waited this long to see specialists.

  �	   93% of enrollees and 80% of disenrollees typically waited an hour or less in the
       office to see their primary doctors.

  �	   Most beneficiaries could reach the offices of their primary HMO doctors by
       telephone, but busy lines caused 11% of beneficiaries to say they sometimes gave up
       on trying to make appointments.


The great majority of enrollees believed they got the Medicare services they needed;
disenrollees, however, reported more problems with access to primary and specialty care.

  �	   95% or more of enrollees had good access to primary, specialty, hospital and
       emergency care.

  �	   While the majority of disenrollees also reported good access, 20% to 25% said they
       failed to receive primary care, referrals to specialists, and HMO coverage of
       emergency care, all services they believed they needed.

  �	   Perceived,unmet service needs and lock-in problems led 22% of disenrollees and
       7% of enrollees to seek out-of-plan care.




                                              ii
Most benejiciaties believed they were personally well-treated by their HMOS or primary
doctors; however, disenrollees were more likely toperceive unsympathetic behaviom that
potentially restrict service access.

  F	 12% of enrollees and 39% of disenrollees didn’t feel their primary HMO doctors
     took their health complaints seriously; over one-third of both groups said this
     happened most to all of the time.

  �	   Disenrollees were 3 times as likely as enrollees to believe that holding down the cost
       of care was more important to their primary HMO doctors and HMOS than giving
       the best medical care possible.


Overall, HMO benejiciuries seemed relatively healthy; however, disenrollees rtied their
health lower than enrollees and repotied a much greater decline in health status during
their HMO stay.


Analysis of smaller groups of enrollees and disenrollees revealed additional strengths
and weaknesses of Medicare risk HMOS.

  �	   Disenrollees without prior HMO experience were more critical of their HMOS than
       those with prior experience; however, the majority of both groups joined another
       HMO upon leaving.

  �	   Disabled/ENID disenrolks, more often than aged disenrollees, reported access
       problems in several crucial areas of their HMO care; 66% of disabled/ESRD
       enrollees wanted to leave their HMOS.

  �	   84% of enrollees intended to stay with their HMOS; the remaining 16% either
       planned to leave or wanted to leave, but felt they could not, primarily for reasons of
       affordability.

  �    Almost one-third of disenrollments were solely for administrative reasons, such as a
       beneficiary’s moving or an HMO’s clerical error; the remaining two-thirds voiced
       more criticism regarding their awareness of appeal rights, the effectiveness of HMO
       care and access to services.


Personal preferences in health care and service access problems were the two non­
administrah”ve categories of reasons for benejiciury disenrollments.

  h	 HMO restrictions on providers and services, plus high beneficiary premiums/co­
     payments, were the leading disenrollment reasons based on personal preferences in
     health care delivery.



                                               ...
                                               111
  �	    Enrollees and disenrollees agreed the two most important reasons for leaving their
        HMOS were the choice of primary HMO doctors and high beneficiary premiums/co­
        payments.


RECOMMENDATIONS

As discussed, beneficiary responses indicate Medicare risk HMOS provide adequate
service access for most beneficiaries who have joined. However, our survey results also
indicate some serious problems with enrollment procedures and service access that we
believe require HCFA’S attention. Our intent is not to prescribe specific corrective
actions, but to identify, based on information from beneficiaries, areas apparently needing
improvement and to suggest techniques HCFA can use to further monitor these areas.

Three    items need immediate     exploration:

  �	    Better informing of beneficiaries about their appeal rights as required by Federal
        standards.

  �	    Carefully examining service access problems reported by disabled/ESRD
        beneficiaries, an especially vulnerable group.

  �	    Monitoring     HMOS   for inappropriate screening of beneficiaries’ health status at
        application.

Other service access issues meriting examination by HCFA in the near future concern
beneficiaries’ perceptions of problems with:

  �     Making routine appointments.

  E Declining health caused by HMO care.

  �     HMOS’ refusal to provide certain services.

Our experience with this survey also suggests some protocols HCFA may want to adopt
for its instrument to survey disenrolling HMO beneficiaries.


AGENCY COMMENTS

HCFA concurred with the report’s recommendations. The Assistant Secretary for
Planning and Evaluation suggested the inclusion of other research, comparative data, and
HCFA monitoring efforts in the report to provide context for our findings. However, we
chose not to largely because such discussions would have over-extended an already
lengthy report. Instead, we cautioned readers about the nature and limitations of the data
presented, and have included the bibliography for those interested in more detail.


                                                  iv
                       TABLE                  OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 ,i

INTRODUCTION.           . . . . . . . . .     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 .1

FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 .4

    Overview      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 .4

    Health Status andServiceUse             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 .4

    Federal HMORequirements.                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 .7

     Access: Appointments for Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 .8

     Access: Medical Services and Out-of-Plan Care . . . . . . . . . . . . . . . . . . . . .
 10

     Access: Behavioral Barriersto Services . . . . . . . . . . . . . . . . . . . . . . . . . .
 12

     Problems and Differences Among Beneficiary Sub-Populations . . . . . . . . . . . .
 13

     Reasons forLeavinganHMO.                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 18

RECOMMENDATIONS                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 23

AGENCY COMMENTS                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 25

ENDNOTES         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .<
 27

BIBLIOGRAPHY            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 32

APPENDICES


     A: Sample andResponseRates               . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l

     B: Sample Demographics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-1


     C: Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-1


     D: Beneficiary Health Status..           . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..D-l


     E: Text ofAgencyComments               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..E-1

                           INTRODUCTION

PURPOSE

This study describes beneficiaries’ perspectives of the Medicare risk HMO experience.


BACKGROUND

Medicare beneficiaries may join a risk health maintenance organization (HMO) through
the Medicare program. When enrolling beneficiaries, HMOS may not deny or discourage
enrollment based on a beneficiary’s health status except for end-stage renal disease
(ESRD) or hospice care. They must also adequately inform beneficiaries about lock-in to
the HMO and grievance/appeal procedures. Under a risk contract, Medicare pays the
HMO a predetermined monthly amount (capitated rate) per enrolled beneficiary. In
return, excepting hospice care, the HMO must provide all Medicare covered services, that
are medically necessary. Once enrolled, beneficiaries are usually required to use HMO
physicians and hospitals (lock-in) and to obtain prior approval from their primary care
physicians for other than primary care. The Office of Managed Care within the Health
Care Financing Administration (HCFA) has oversight responsibility for Medicare risk
contracts with HMOS. As of July 1, 1994, HCFA reported 136 risk-based HMO plans
served 2,036,279 Medicare enrollees. 1


METHODOLOGY

Definition of access

Beyond referencing medical necessity and an actual or likely adverse effect on the
beneficiary, the law and regulations do not clearly delineate what full access to services
through an HMO means. In order to construct a survey instrument that adequately
covered access to services, we adapted a deftition from literature. 2’3 Basically, it uses
five dimensions (availability, accessibility, accommodation, affordability, and
acceptability) that represent the degree of “fit” between the patient and the health care
system, e.g. existing services and the patient’s medical needs, or price of services and the
patient’s ability to pay. To tailor the survey for Medicare risk HMOS, we expanded the
idea of service availability to include the role of gatekeepers, primary physicians or others
associated with the HMO, in preventing or facilitating beneficiaries’ receipt of covered
services. Operationally, we divided access into four areas: appointments, including
waiting time and administrative processes for making them; restrictions on medical
services; incidence and reasons for out-of-plan care; and behavior of primary HMO
doctors and other HMO personnel towards beneficiaries.




                                              1
Sample selection

We selected a stratiiled random sample from HCFA’S Group Health Plan (GHP) data
base. First, we sampled 45 HMOS from the 87 HMOS under a risk contract with HCFA
as of February 1993.4 Beginning with the GHP data, we counted the number of
enrollments occurring within calendar years 1991 and 1992. For this cohort, we then
calculated the proportion of disenrollments5 within the following 12 months. Based on
this disenrollment rate, we divided the 87 risk HMOS into three strata of 29 HMOS each.
Within each strata, we selected 15 HMOS by simple random sampling.6 Second, from
each sampled HMO, we randomly selected 50 Medicare beneficiaries who were enrolled
as of February 28, 1993 and 50 who had disenrolled between November 1992 and
February 1993 inclusive (see Appendix A). When the total number per HMO for either
group was less than 50, we selected them all. Using HCFA’S Enrollment Data Base, we
excluded, from the sampling universe, beneficiaries who had died or who appeared as
current enrollees, but had actually disenrolled since the last update to the GHP fde. This
process resulted in 2,217 enrollees and 1,915 disenrollees for a total of 4,132
beneficiaries.


Scope and &a collection

Since this study’s primary focus is the Medicare beneficiaries’ perceptions of a risk HMO
experience, we only collected information from them. We did not contact HMOS or their
staffs, nor did we attempt to assess the quality or propriety of medical care rendered by
the HMOS to these beneficiaries. We initially mailed structured surveys to 4,132
beneficiaries in late April 1993.7 In early May 1993, we mailed a follow-up letter and
second survey to non-respondents; we closed data collection in July 1993. Both enrollees
and disenrollees provided information on sample and demographic data, enrollment
experience, past health status and service use, HMO environment, and HMO services
available. Additionally, enrollees were asked about current health status and future plans
for HMO membership while disenrollees were asked about health status at disenrolknent
and reasons for disenrollment. We surveyed both enrollees and disenrollees to compare
their responses, and thus, to gain greater insight into HMO issues. We did not
specifically ask beneficiaries about their satisfaction with the HMOS, as the concept of
satisfaction is less objective than, and sometimes independent of, the issues of membership
in a Medicare risk HMO. A total of 2882 surveys were deemed usable,g yielding an
unweighed return rate of 70 % overall, 77% for enrollees (N= 1705) and 61% for
disenrollees (N= 1177).9


Weighting and interpretti”on

This study is a descriptive, exploratory analysis. We did not assume knowledge about
non-respondents. We used tests for differences of means and proportions to discern
sigtilcant differences between respondents and non-respondents by three demographic
characteristics -- age, race, and sex. Significant differences were found based on


                                             2
unweighed data. We decided to take the most conservative approach, weighting the
sample to approximate 70% of the universe (see Appendix A). Also see Appendix B for
respondent demographic profde which shows little difference between enrollees and
disenrollees. Respondents were predominantly female, white, age 65 or older, and high
school graduates or higher. We calculated from HCFA data provided for each respondent
that the average length of enrollment in the sampled HMOS was 36 months for enrollees
and 29 months for disenrollees.

When weighted, the sample approximates the disproportionate distribution of enrollees and
disenrollees in the universe (97% vs. 3%). Because of this imbalance, we initially
analyzed the two groups separately. Once proportions were computed per question for
each group, answers from enrollees and disenrollees were then compared and are the basis
for all Tables in this report except for Tables showing sub-populations. 10 Interpretation
of these comparisons requires caution, however, since a small percentage of enrollees can
represent many Medicare beneficiaries -- more beneficiaries, in fact, than a high
percentage of disenrollees.

We   also analyzed sub-populations of enrollees and disenrollees. Within each of these
groups, we compared beneficiaries who are age 65 or older, disabledl 1 or have ESRD,
and beneficiaries with and without prior HMO experience. For enrollees only, we
compared those who planned to stay in their HMOS to those who planned to leave or
wanted to leave but felt they could not. For disenrollees only, we compared those who
left for personal or service access reasons to those who left solely for administrative
reasons. Administrative reasons for disenrollment were beneficiaries’ moving out of the
HMO service area, their HMOS no longer participating as a Medicare risk HMO or in
their companies’ retirement plan, or involuntary disenrollments such as late premium
payments or clerical error. Data for the sub-populations are presented in Tables 12 to 15
and in Figure 1 and only cover survey questions that differentiated the sub-populations.

Throughout the report, percentages are based on the number of responses to each
question. We calculated response rates based on the weighted value of the beneficiaries
eligible to answer, which varies due to the use of contingency questions. Questions with
response rates of less than 50% are not reported. The majority of questions had response
rates of 80% to 99%. Additionally, we computed 95% conildence intervals for key
questions (see Appendix C). A few of the contldence intervals are quite broad,
particularly for disenrollees, due to the small number of responses for some questions.

This inspection was conducted in accordance with the Quality Standurdsfor Inspections
issued by the President’s Council on Integrity and Efficiency.




                                             3

                                         FINDINGS


OVERVIEW

Generally, beneficiary responses indicaie Medicare risk HMOS provided adequate service
access for most benej?ciun”eswho had joined.

The majority of enrollees and disenrollees reported medical care that maintained or
improved their health, timely appointments for primary and specialty care, good access to
Medicare covered services and to hospital, specialty and emergency care, and sympathetic
personal treatment by their HMOS and HMO doctors. In some in&nces, however,
enrollees and disenrollees differed markedly in reporting their HMO experiences. When
this happened, we describe the difference as a point of comparison.


HEALTH STATUS AND SERVICE USE

Overall, HMO beneficiaries seemed retively                 healthy, and few perceived themselves as
potentially high users of medical services.

Based on beneficiary-reported incidence of acute or chronic medical conditions, the
majority of enrollees and disenrollees appeared to be in relatively good health. Two-
thirds of both groups reported they had no serious health problems while enrolled in the
sampled HMOS. One-third had one or more serious problems such as, broken bones
(9%), cancer (8%), heart attack (7%), pneumonia (7%) or a stroke (3%). 12 Reports on
chronic ailments from both groups show about one-tenth had none and one-third had 1 to
3 chronic ailments of varying severity, e.g., high blood pressure only or joint pain and
skin problems. Only 3% were nursing home patients in the last year.


                                      Table 1: Beneficiaries’   Health13

                                                                     All      Dkenrollees   Enrokea

  While in the HMO, reported no serious problems, e.g.,             67%           69%         67%
  broken bones or cancer.                                         (669,619)     (16,440)    (653,180)

  While in the HMO, reported:
                                                                    10%           12%          10%
          F no chronic ailments                                   (97,674)      (3,043)     (100,717)
                                                                    32%          31%          32%
           �   1 to 3 chronic ailments of varying severity        (317,887)     (7,584)     (310,304)

                                                                    3%                        3%
  Were nursing home patients in the last year.                    (27,363)       (R)        (26,547)

  Had been admitted to the hospital while a member of the           49%           42%         49%
  sampled HMO.                                                    (492,668)     (10,334)    (482,334)




                                                       4
By  our deftition, few beneficiaries reported a high propensity to use services. Only 13%
of enrollees and 10% of disenrollees both worried about their health the same as or more
than other people their age ~ went to the doctor as soon as they started to feel bad.
Their reported frequency of doctor visits and hospital admissions supports their self-
evaluations of propensity to use services. During the last year, 91% of all beneficiaries
saw their primary HMO doctors or specialists and 49% had been admitted to the hospital
while a member of the sampled HMO. However, Table 2 shows that high propensity
beneficiaries more often reported the higher rates of doctor visits and hospital admissions.


                               Table 2: Propensity     Level and Service Use

                                     Enrollees’ Propensity                      Disenrollees’ Propensity

                                 Low        Medium           High              Low       Medium       High

 1 to 6 ~    primary HMO
 doctor or specialist visits     83%         73%              65%           87%           83%        60%
 in the last year.             (204,527)   (145,428)        (72,403)       (5,581)       (4,256)    (1,281)

 7 or more =M primary
 HMO doctor or specialist        17%         27%              35%              13%         17%        40%
 visits in the last year.      (40,915)    (54,384)         (39,032)           (829)      (886)       (860)

 Admitted to the hospital
 while a member of the           41%         53%              62%           27%           54%         53%
 sampled HMO.                  (123,378)   (120,626)        (74,427)       (2,118)       (3,202)     (1,337)



Disenrollees rtied their health lower than enrollees and reported a much greater decline
in health status during their HMO stay.

Enrollees and disenrollees rated their health status differently. A comparison of the
number and severity of acute/chronic health problems reported by beneficiaries indicates
the enrollee and disenrollee groups are similarly distributed, ranging from no problems to
multiple conditions (see Appendix D). However, disenrollees tended to rate themselves in
poorer health overall than the enrollees who are comparable in the number and severity of
health problems. Table 3 shows that most beneficiaries rated their health as good to
excellent, both when they joined the HMO and when we surveyed them -- an average
elapsed time of 36 months for enrollees and 29 months for disenrollees. Both groups also
self-reported deteriorating health over time. However, at disenrollment, 19% fewer
disenrollees rated their health as good to excellent compared to when they frost joined
their HMOS. This is more than double the 9% rate of decline from good to excellent
health reported by enrollees.




                                                       5

                            Table 3: Beneficiaries’    Self-Reported        Health Status

                                                                             All         DkenroIIees             Enrollees

  Were enrolled in the sampled HMO more than 12                              76%               65%                 77%
  months.                                                                 (847,226)          (18,450)            (828,776)

  Rated their health as good to excellent when they joined                   79%               70%                 79%
  the HMO.                                                                (854,295)          (18,627)            (835,668)

                                                                            69%                51%                 70%
  Rate their health as good to excellent now.                             (756,428)          (12,905)            (743,523)

  Change                                                                    -lo%                -19%               -9%



While not conclusive, our data suggest that a beneficiary’s self-reported health status and
propensity to use services, which was discussed earlier, may be related. 14 Another study
noted high users tend to have chronic conditions and multiple problems that make their
greater use seem appropriate. 15 Generally, we found both enrollees and disenrollees
were less likely to rate their health as good to excellent as their propensity to use services
increased (see Table 4). However, while the enrollees’ self-reported rate of declining
health over time was about the same for each level of propensity to use services,
disenrollees’ self-reported rate of declining health increased as propensity to use services
increased. Our data do not explain this difference between enrollees and disenrollees;
perhaps more detailed research is required concerning the relationship between beneficial
access to services and perceived health status.


                  Table 4: Propensity      to Use Services and Self-Reported           Health Status

                                      Enrollees’ Propensity                              Disenrollees’ Propensity

                                  Low           Medium           High                  Low             Medium         High

 Good to excellent health         90%            84%             62%                    77%              71%          56%
 when HMO joined.              (290,009)      (217,096)        (78,867)               (6,824)          (4,726)      (1,576)

 Good to excellent health         80%            72%             55%                   62%               49%         31%
 now.                          (263,243)      (184,336)        (75,743)               (5,309)          (3,134)       (835)

 Change                          -10%           -12%             -7%                  -15%             -22%          -25%



Disenrollees were much more likely to blhme their HMO care for their declining health.

Another important difference between enrollees and disertrollees is how they rated the
effectiveness of the HMO care (see Table 5). Disenrollees (22%) were ten times more
likely than enrollees (2%) to believe the medical care received through the HMO caused
their health to worsen. While slightly more than 40% of both groups perceived that the




                                                          6

HMO medical care caused their health to stay about the same, fully half of enrollees said
HMO care improved their health compared to only one-third of disenrollees.


II                         Table 5: Effect of HMO care on Beneficiaries’   Health

II                                                                All        Disenrollees   Enrollees

     Medical care received through the HMO caused their
     health to:
                                                                  50%               32?4      50%
                     �   improve                               (505,538)        (7,239)     (498,298)
                                                                  43%            41%
                     F stay the same                           (432,605)        (9,335)     (42~,?70)
                                                                   2’%           22%           2%
                     b   worsen                                 (22,475)        (4,951)     (17,524)



FEDERAL HMO REQUIREMENTS

Beneficiary responses indicaie HMOS generally adhered to Federal standurds for
enrollment procedures, but screening for health status af applic~”on and a lack of
beneficiary awareness of appeal rights were apparent problem areas.

Beneficiaries’ recollections and perceptions indicate weaknesses in enrollment procedures
(P), and in beneficiary understanding of lock-in (L) and individual appeal/grievance rights
(R). With the exceptions of ESRD and the election of hospice care, Federal regulations
prohibit HMOS from denying or discouraging enrolhnent based on a beneficiary’s health
status. HMOS must also adequately inform beneficiaries about lock-in to the HMO and
grievance/appeal procedures. Basically, the experiences of enrollees and disenrollees were
similar (see Table 6). However, disenrollees were less likely than enrollees to have a
good overall understanding of HMOS. 16

Items 1 and 2 in Table 6 illustrate how HMOS may have improperly screened applicants
based on their health status. More than 2 of 5 beneficiaries, who could remember, said
they were asked at application about their health problems, excluding kidney failure and
hospice care. Between 2% and 3% reported a physical examination was required before
they could join the HMO, an event that should never occur. 17 We specifically asked
beneficiaries about their experiences at application. However, some HMOS conduct a
health assessment interview shortly after enrollment. If some of these responses refer to
such health assessments, this may have inflated our data. However, the length of
enrollment in the HMO did not seem to affect beneficiary responses. The proportion of
beneficiaries reporting health questions and required physical examinations at application
was nearly the same for beneficiaries who had been enrolled for more than 12 months and
for 12 months or less.




                                                     7

                                     Table 6: Enrollment      Experience

                                                                      All      Dkenrollees   Enrollees

 1. (P)    Were asked at application about health problems,          43%           48%         43%
           excluding kidney failure and hospice care.             (322,502)       (9,442)    (313,060)

 2.	 (P)   Were required to have a physical examination                                        3%
           before joining the HMO.                                 (2;,?54)        (22)      (25,827)

 3.	 (P)   Didn’t know they could change their minds about           8%             15%          8%
           enrolling in the HMO after they applied.                (78,631)       (3,446)     (75,186)

 4. (L)    Didn’t know, from the beginning, they:

       F needed a referral from their primary HMO                     11%           17%         10%
         doctors to see a specialist.                              (115,197)      (4,566)    (110,631)

       �   could only use HMO doctors and hospitals
           (except for emergent care and urgent care outside         4%             6%           4%
           the service area).                                      (40,637)       (1,665)     (38,972)

 5.	 (R)   Didn’ t know they had the right to appeal an              25%           31%         25%
           HMO’s refusal to provide or pay for services.           (250,624)      (6,753)    (243,871)

 6.	       Overall, had a good knowledge from the                    76%           66%         76%
           beginning of how the HMO would operate.                 (716,242)     (15,532)    (700,709)



Also problematic is the fact that at least 1 in 10 enrollees and disenrollees didn’t know
from the beginning they would need referrals from their primary HMO doctors to receive
specialty care (item 4). Finally, 25% didn’t know they have the right to appeal the
HMO’s refusal to provide or pay for services (item 5). Forty-four percent of disenrollees,
who didn’t know about their appeal rights, were most likely to say they had been denied
and would have appealed if they had known compared to only 9 % of enrollees in the same
circumstances. In contrast, 71% of enrollees, who didn’t know they had appeal rights,
most often said their HMOS didn’t refuse to provide or pay for services in the frost place.


ACCESS:        APPOINTMENTS            FOR SERVICES

Most beneficiaries reported timely doctor appointments for primary and specialy care,
but some enrollees and disenrollees experienced noteworthy delays.

Timely appointments can entail days elapsed before a scheduled appointment or time spent

in an office waiting to see a doctor. Table 7 shows that the majority of enrollees and

disenrollees said they got appointments within 1 to 2 days when they believed they were

very sick, could schedule appointments with primary care doctors and specialists within 8

days or less, and usually waited less than an hour in the office to see the doctor.

However, disenrollees did not fare as well as enrollees in two categories of timely

appointments -- quickly scheduled appointments for very sick beneficiaries and time spent



                                                      8
waiting in the office to see the doctor. Of the enrollees and disenrollees who had been
very sick, disenrollees were 2.5 times as likely to say they didn’t get an appointment
within a day or two. Disenrollees also reported longer waits in the office to see their
primary HMO doctors; they were almost three times as likely to wait 1 hour or more
compared to enrollees.


                                       Table 7: Appointment   Times

                                                                  All       Dkenrollees   Enrollees

  Were able to get a doctor’s appointment in a day or 2          94%            85%         94%
  when they were very sick.                                    (651, 199)     (14,579)    (636,620)

  For a scheduled appointment with their primruy HMO
  doctors, usually waited:
                                                                  52%            52%         52%
           F 1 to 4 days                                       (496, 182)     (11,876)    (484,306)
                                                                  26%           23%          26%
           �   5 to 8 days                                     (240,484)       (5,325)    (245,809)
                                                                   6%                         6%
           F 9 to 12 days                                       (60,588)      (1:5?4)      (58,994)
                                                                  16%           18%          16%
           F 13 to more than 20 days                           (154,852)      (4,219)     (150,632)

  For a scheduled appointment with specirdists, usually
  waited:
                                                                  34%           43%          34%
           �   lto4   days                                     (268,781)      (7, 194)    (261 ,588)
                                                                  29%          24%           29%
           F 5 to 8 days                                       (229, 112)     (4,018)     (225,094)
                                                                  12%           7%           12%
           k 9 to 12 days                                       (94,202)      (1,239)      (95,441)
                                                                  24%          26%           24%
           F 13 to more than 20 days                           (189,212)      (4,464)     (184,748)

  Usually waited in the office before seeing their primary
  HMO doctors:
                                                                 53%            36%         53%
           F less than 1/2 hour                                (525,978)       (8,186)    (517,792)
                                                                 40%             44%        40%
           �   1/2 hour to 1 hour                              (400,354)      (10,006)    (390,348)
                                                                                20%
           b more than 1 hour                                  (69T;O)         (4,609)    (64~&)



A substantial group (16% to 26%) of enrollees and disenrollees reported waiting from 13
to more than 20 days for scheduled appointments for primary and specialty care. This
wait is an important consideration for beneficiaries who have serious hed~h problems and/
or multiple chronic ailments of varying severity. Moreover, when sorted by the number
and severity of health problems, the reported waiting times for scheduled appointments
differ little between the healthier and sicker beneficiaries. The sicker beneficiaries were
just as likely as the healthier beneficiaries, or slightly more likely in some cases, to wait


                                                      9
13 days or longer for scheduled appointments. 18 ~ exception was disenrollees who are
disabled or have ESRD; 81% of these waited 8 days or less for scheduled appointments
with specialists. 19

The data suggest that some enrollees and disenrollees may have had better access to
physician care for more acute conditions than for health maintenance or preventive care.
A high percentage of both groups were able to see a doctor quickly when they were very
sick. Those with the more numerous or severe health problems were more likely to get
appointments quickly when they felt very sick. This pattern for appointments contrasts
with the one noted above concerning waiting time for scheduled appointments with
primary HMO doctors and specialists.


Busy telephone lines and misplaced medical records caused appointment difficulties for
some benejician”es.

Busy telephone lines and misplaced medical records can also affect beneficiaries’ ability to
make appointments for care. Busy telephone lines did hinder some beneficiaries’ access
to services (see Table 8). Disenrollees reported encountering consistently busy telephone
lines almost twice as often as enrollees, and said they gave up trying to make
appointments slightly more often. Problems with medical records were relatively
uncommon. Of the 9 % of all beneficiaries who reported lost or misplaced medical
records, only 3 % (N= 2 ,977) reported they were kept from using HMO covered services
as a result.


                                  Table 8: Appointments   by Telephone

                                                                 All      Disenrolkes   Enrollees

                                                                 19%         34%           19%
 Reported busy lines all to most of the time.                 (116,784)     (5,093)     (111,691)

 Sometimes gave up on making appointments due to the            11%           17%         11%
 busy lines.                                                  (67,768)      (2,627)     (65,141)



ACCESS:      MEDICAL SERVICES AND OUT-OF-PLAN CARE

The great majority of beneficiaries believed they received the Medicare services they
needed; however, disenrollees were more likely than enrollees to perceive problems with
access to pn”mary and specialty care.

A large majority of enrollees and disenrollees believed their primary HMO doctors and
HMOS provid~ the necessary care. Their responses consist&tly ~dicated good access to
Medicare covered services, hospital care and specialty care (see Table 9). However,
disenrollees reported more access problems in three categories. First, disenrollees (22%)
said their primary HMO doctors failed to provide Medicare covered services 7 times as


                                                   10
often as enrollees (3%). Second, disenrollees (23%) were much more likely than
enrollees (5%) to report their doctors’ failure to give the necessary referrals to specialists.
In fact, disenrollees who reported 1 or more serious illnesses (40%) were more than twice
as likely to cite this denial of referrals than disenrollees who reported no serious illnesses
(17 %). Third, disenrollees (16%) more often reported HMOS’ refiwi.ls to pay for
emergency care compared to enrollees (3%). As with referrals to specialists, disenrollees
with serious conditions (25 %) were more likely to report these refused payments than
disenrollees with none (11 %). A complication of payment for emergency care is that
beneficiaries, understandably, don’t always differentiate between emergency care and
urgent care. While HMOS wiU generally pay for any required emergency care, they will
only pay for unauthorized urgent care outside the service area.

Only 4% of all beneficiaries reported being told by medical or office staffs that a needed
medical service was not covered by the HMO. The most frequently mentioned services
were chiropractors (37 %), laboratory tests and x-rays (14 %), medical equipment for home
use (11 %), and skilled nursing home care (10 %) -- all of which are Medicare covered
services with some restrictions. Although based on a few responses, they may indicate a
problem with service provision by the HMOS and/or beneficiary misunderstanding of
available services.


                                         Table 9: Service Access

                                                                   All     Disenrollees   Enrollees

  Primaxy HMO doctor never failed to provide Medicare           94%            77%          95%
  covered services that were needed.                          (943,083)      (18,494)     (924,590)

  Primary HMO doctor never failed to admit to hospital           98%           91%           98%
  when needed.                                                (931 ,995)     (20,742)     (911,253)

  Primary HMO doctor never failed to refer to a specialist      94%            75%          95?4
  when needed.                                                (914,121)      (17,666)     (896,459)

  HMO never refused to approve a Medicare covered               96%            92%          96%
  service that primary HMO doctor wanted.                     (931,001)      (20,681)     (910,320)

  HMO never refused to pay a doctor or hospital for             94%            80%          94%
  emergency care                                              (910,975)      (18,067)     (892,908)



Perceived unmet service needs and factors related to lock-in lead some beneficiaries to
out-of-plan care.

Excluding dental, routine eye, and emergent/urgent care, 7% of all beneficiaries reported
they had sought out-of-plan care for Medicare covered services without prior approval
from the pfiary HMO- doctor or the HMO (see Table 10). Disenroll~-s went out-of-plan
3 times as often as enrollees. Four out of 5 of the most mentioned reasons for seeking
out-of-plan care relate to service access problems and misunderstanding of lock-in, and
were of greater importance to disenrollees.


                                                      11
       Perceivd access problems (and thetipfid       fipacton qutity of cue) areexemplifkxias

       needing the unapproved care, not getting services quickly enough, and not being helped by

       the primary HMO doctor (reasons 1, 2 and S). Not wa&ng to go through the HMO for

       specialty care (reason 4) can also indicate access problems and/or beneficiaries’

       discomfort with HMO control of utilization through lock-in. Not knowing they would

       have to pay for out-of-plan care (reason 3) illustrates beneficiary misunderstanding of

       lock-in. The majority of beneficiaries who sought out-of-plan care had done so 1 to 3

       times in the last year (78% of disenrollees and 87% of enrollees).



                                          Table 10: Seeking Out-of-PIan   Care

                                  WHo?                                    All    Disenrokes   Enrollees

                                                                         7%          22%         7%
         Beneficiaries who went out-o f-plm                           (70,817)     (5,187)    (65,629)

                                  WHY?

                                                                        42%          51%        41%
         1. Needed care even if HMO would not approve                 (27,708)     (2,368)    (25,340)

                                                                       21%           46%        19%
         2.   Couldn’t get HMO services quickly enough               (13,501)      (1,946)    (11,555)

                                                                       18%           36%         16%
         3.   Didn’t know they would have to pay                     (11,285)      (1,774)     (9,511)

                                                                        12%          15%         12%
         4. Didn’t want to go through HMO to see specialist           (8,009)       (700)      (7,310)

                                                                        12%          42%         10%
         5. Primary HMO doctor wasn’t helping beneficiary             (7,987)      (2,094)     (5,892)



       ACCESS:       BEHAVIORAL BARRIERS TO SERVICES

       Most benejiciaties believed they were personally well-tre~ed by their HMOS or primary
       doctors; however, disenrollees were more likely to perceive unsympathetic behaviom that
       potentially restrict service access.

       Unsympathetic behavior of primary HMO doctors, their staffs and HMO ofilce staff can
       directly or subtly restrict beneficiaries’ access to medical services. Actually telling
       beneficiaries that their medical needs could not be accommodated is a direct approach for
       which we found only slight evidence, i.e., less than 1 % of all beneficiaries noted a
       problem. However, about 4% of disenrollees, an estimated 900 beneficiaries, said they
       had been told by primary HMO doctors, their staffs or HMO office staff that the HMO
       couldn’ t afford the medical care that the beneficiary needed or that they would receive
       better care outside the HM0.20 In addition, medical professionals can subtly curtail
       access to services by not taking health complaints seriously or by showing undue concern




                                                         12



.———
about treatment costs. Overall, 10% to 12% of beneficiaries perceived these kinds of
personal treatment problems that can indirectly restrict access (see Table 11).21

Disenrollees were more than 3 times as likely as enrollees to believe their primary HMO
doctors did not take their health complaints seriously. However, substantial portions of
both enrollees (36 %) and disenrolkxs (44%), who didn’t feel they were taken seriously,
said they encountered this attitude most to all of the time. Disenrollees were about 3
times as likely to believe that holding down the cost of care was more important to their
primary HMO doctors or their HMOS than giving the best medical care possible.
Disenrollees were also more likely than enrollees to say they didn’t know what was most
important to their doctors and HMOS. Enrollees were comparatively more deftite, with
over two-thirds saying that giving the best medical care possible is most important to their
doctors and HMOS.


                               Table 11: Personal Treatment   of Beneficiaries

                                                                   All           Dkenrolkes   Enrollees

  Primary HMO doctor did not take health compltits                 12%               39%         12%
  seriously.                                                    (1 17,723)         (8,868)    (108,855)

                                                                  36%                            36%
  Didn’t take complaints seriously all to most of the time.     (36,434)           (3%5)       (32,760)

  Most important to your primary HMO doctor is:22
                                                                  10%               28%          10%
           F holding down the cost of care                     (101,155)           (6,460)     (94,695)
                                                                  72%               47%          73%
           b i%iv@ the best medical care possible              (727,550)          (10,927)    (716,623)
                                                                  13%               24%          12%
           F don’t know                                        (126,383)           (5,564)    (120,S19)

  Most important to your HMO is:22
                                                                  11%               35%          11%
           ~ holding down the cost of care                     (116,436)           (8,071)    (108,364)
                                                                 66%                39%         67%
          �   @ving the best medical care possible             (676,073)           (9.016)    (667,057)
                                                                  12%               20%          12%
          * don’t know                                         (125,318)           (4,609)    (120,709)




PROBLEMS AND DIFFEREN CES AMONG BENEFICIARY                                      SUB-POPULATIONS

DisabledlESRD disenrollees most often repotied access problems in several crucial areas
of their HMO care; many dis@led~ES~-enrollees     wanted to leave.

Disenrollees who are disabled or who have ESRD are a small (an estimated 2300
beneficiaries), highly critical group. 23 As shown in Table 12, they were twice as likely
as aged disenrollees and 41 times as likely as disabled/ESRD enrollees to say that medical
care received through the HMO caused their health to worsen. In addition, more than all


                                                      13



                            —.
the aged beneficiaries and disabled/~~      enroll~s, these disenrollees reported having
limited access to some medical services. They were the most likely to report that their
ptiary ~0       doctors restrictedaccess to needed Medicare covered services, didn’t refer
them to specialists when necess~, and didn’t take their health complaints seriously.
‘I’heywere also the most likely to seek out-of-plan care while still enrollti in the HMO
and to believe that holding down the cost of cme was more impo~t         to primary HMO
doctors and the HMOS than providing the best medical care possible.


        Table 12: Beneficim        Persp&tivs
                                       .        bv. Medi~re       CatWoti~          of Aged
                                                                                        — or Disabled/ES~

                                                            Dkenrollm                                  Enrollees

                                                        Aged            Dwbld/                     Aged          D~abled/
                                                                         ESRD                                     ESRD

 Medical care received through the HMO                  20%                 41%                     2%                 1%
 caused beneficiq’s  health to get worse.              (4,094)              (858)                (17,294)             (231)

 For a scheduled appointment with their
 Primary HMO doctors, usually waited:




                                                     -                            .
       P~aIY WO doctors restricted access to needed Medicare cover&i services, didn’t refer
       them to speci~sts when necess~, and didn’t take their health comptits        seriously.
       They were also the most likely to seek out-of-plm care while still enrolled in the HMO
       and to believe that holdtig down the cost of c~e was more im~otit      to D&a~ HMO
       doctors and the ~Os     thm provid~g the best mdicd cm po;5ib1e. ‘              ‘--



                Table 12: Beneficiq        PempWtiv6     by Mediwe           Cat~ori~         of Aged or Disabled~S~

                                                                        Disenrollees                              Enroll=

                                                                    Aged             Disabled/                Aged             Dwabledf
                                                                                      ESRD                                      ESRD
        Medical care receivd through the HMO                        20%                41%
        caused beneflcia~’s health to get worse.                   (4,094)            (858)                 (1;?94)              (:3;)
        For a scheduld appointment with their
        primary HMO doctors, usually waited:
                                                                   49%                78%                  51%                   68%
                 �   1 to 4 days                                 (10,246)            (1,630)            (4y6&7)                (15,749)
                                                                   24%                15%                                        11%
                 �   5t08&ys                                      (5,011)            (314)              (237,936)              (2,549)
                                                                    27%                8%                  23%                   21%
                 * more than 8 days                               (5,654)            (158)              (204,855)              (4,771)
       For a scheduled appointment with specialism,
       usuaIly waited:
                                                                   40%                69%                 35%                    12%
                �    lto4&ys                                      (5,976)           (1,218)            (258,235)               (3,353)
                                                                   25%                13%                 29%                   42%
                b 5 to 8 days                                    (3,797)             (222)             (213,086)              (12 fmp~
                                                                   36%               19%                 a--
                b more than 8 days                               (5,370)             ‘-
      Primary HMO doctor fail-~ .-
      Me~i.*-­
Concerning waits for scheduled appointments with their primary HMO doctors and
specialists, the pattern is reversed in favor of disabled/ESRD disenrollees. The majority
of them waited the shortest times (1 to 4 days). In contrast, disabled/ESRD enrollees
were the most likely to wait from 5 to 8 days or longer for appointments with specialists.
Sixty-six percent (an estimated 18,000) of these enrollees reported wanting to leave their
HMOS, but felt they couldn’t.


Disenrollees without prior HMO experience were more ctical of their HMOS than those
with pn”or experience; the majority of both groups joined another HMO upon leaving.

While most beneficiaries (86 %) were not HMO members immediately before joining the
sampled HMO, this lack of prior experience with HMOS seems to have had more
influence on disenrollees’ perceptions of service access than on enrollees’. Enrollees with
and without prior HMO experience responded similarly about the various aspects of
service access. On the other hand, disenrollees who had not been HMO members
previously (an estimated 20,000 beneficiaries) reported access problems more often. As
Table 13 ‘shows, disenrollees with no prior HMO experience were 1.5 to 3 times as likely
to perceive longer waits in doctors’ offices, service restrictions by primary HMO doctors,
the need for out-of-plan care, difficulty with HMO payment for emergency care, and
trouble with personal care by their primary HMO doctors and the HMOS.


                      Table 13: Disenrollee   Perceptions   By I%or HMO Experience

                                                                              IMor     None

 Usually waited more than an hour in office before seeing their primary        9%       24%
 HMO doctors.                                                                 (459)    (4,069)

 Primary HMO doctor failed to provide Medicare covered services that          10%       25%
 were needed.                                                                 (526)    (4,258)

                                                                               11%       27%
  Sought out-of-plan care while in the HMO.                                   (533)    (4,626)

                                                                               7%        17%
  HMO refused to pay for emergency care.                                      (338)    (2,834)

  Primary HMO doctor did not take their health complaints seriously all                 62%
  to half the time.                                                           ($0?)    (3,908)

  Holding down the cost of care was ~t    important to:
                                                                              17%       32%
           their primary HMO doctor.                                          (866)    (5,458)
                                                                              26%        40%
           the HMO.                                                          (1,303)   (6,614)




The majority of disenrollees, both with and without prior HMO experience, joined another
HMO after leaving the sampled HMO, but at different rates. Most disenrollees (77%)


                                                      15
were not HMO members immediately before joining the sampled HMOS. Those with no
prior experience came into the HMO from care in a doctor’s office (73%) or in no regular
place (14 %). By deftition, all disenrollees with prior HMO experience (23%) were
members of another HMO immediately before joining the sampled HMO. However, a
notably larger proportion of those with prior HMO experience (81%) than those without
prior HMO experience (51 %) went onto another HMO. The remainder of disenrollees
without prior HMO experience turned for care to a doctor’s office (32%), a community
clinic or health center (9%), or a hospital emergency room (6%).

The data do not explain the difference between the two groups of disenrollees. One
possibility is that beneficiaries are seeking a certain level of comfort with a health care
delivery system. A substantial portion of disenrollees who began in fee-for-service, may
try an HMO, not like it conceptually and return to fee-for-service settings. Other
disenrollees may be at ease with the HMO concept and/or cost, and try various ones until
they fmd a particular one that meets their needs. An appropriate Ua for firther s~dy
may be the extent to which the Medicare population can or will adapt to the HMO form of
managed care after extensive experience with fee-for-service. Another important research
question is to learn more about how able or willing HMOS are to accommodate the special
health care needs of an aging population.


 Sixteen percent of enrollees either planned to leave their HMOS, or wanted to leave but
felt they could not.

Eighty-four percent of enrollees had no plans to leave their HMOS, but the remaining
16%, an estimated 150,000 beneficiaries, either planned to leave or wanted to leave but
felt they could not (see Table 14). The plans of 2 % were predicated on an anticipated
move out of the HMO’s service area. These would fall into the administrative category
discussed in the next section. Another 4 % planned to leave for non-administrative
reasons. The final 10% wanted to leave but felt they could not, primarily because of the
relative affordability of HMO care.


                                Table 14: Enrollees’    Future HMO Plans

                                                                           Number   Percent

  Planned to leave the HMO because of anticipated move                     22,317     2%

  Planned to leave the HMO for other reasons                               37,021     4%

  Wanted to leave the HMO, but felt they couldn’t because:24               93,774    10%

          �   HMO is the only way to afford all the health care needed     71,845    89%
          � Medicine is too expensive outside the HMO                      67,634    86%
          F Enrollee can’t afford non-HMO doctors                          66,220    83%
          � Enrollee can’t afford private health insurance                 68,843    78%
          � Enrollee isn’t eligible for Medicaid                           33,532    44%




                                                       16
                                                                                                                                                     .
                                                                                                                                             -


                         .——
                           —
                                                          -*-            ..
                                                                                                                 --- . .                                  -
                                                                                                                     --- ---                             —
                                                                                                                               ------   __




                                                                   ---




  . . . . . . . . -----




I.--*     ----       .    .   .   .   .   .   .   .   .       !.

                                                                         --.   .>   1.1:   .1



                                                          *
                                                                                                             -----
                 —                                                                              ----   --------                                  9
Enrollees who had no plans to leave their HMOS tended to dominate the data for all
enrollees. In some areas though, enrollees that planned or wanted to leave differ from the
main group of enrollees (see Figure 1). While not conclusive, our data suggest that: a)
enrollees who planned to leave appear less well informed about HMOS and more
displeased with service delivery, and b) those who wanted to leave, but couldn’t seem less
healthy and compelled to stay because of financial considerations.

Figure 1: Enrollees who planned to remain in their HMOS compared        to enrollees who planned to leave
and to enrollees who wanted to leave, but couldn’t.


   Enrollees   Who Plan to Leave Are:                    Enrollees   Who Want to Leave But Can’t
                                                         Are:

   More Likelv to:                                       More Likely to:

   h perceive doctors don’t take their                   w worry  about their health

            complaints seriously                         E report health questions at application

   � wait more than 12 days for doctor                   ~ wait more than 12 days for doctor

            appointments                                         appointments
   � wait more than 1 hour in the doctor’s               � wait more than 1 hour in the doctor’s
            office                                                office
   w say they hadn’t been very sick                      k not get quick appointments when they were
   � perceive doctors didn’t provide all                         very sick
            needed services                              � wait from 13 days to more than 20 days for
   � complain their doctors wouldn’t refer                        an appointment with a specialist
            them to specialists                          h report appointment lines were busy all to
   � not know what is most important to their                     most of the time
            doctors or their HMOS
   � seek out-of-plan care




   Less Likely to:                                       Less Liielv to:

    � report good to excellent health when they          b report good to excellent health when they
             joined the HMO and now                              joined the HMO and now
    � be filly informed about HMO lock-in                b say they hadn’ t been very sick
    w have received services while an HMO                � believe giving the best me&cal care
              member                                             possible is most important to their
    b believe giving the best medical care                       HMO
              possible is most important to their        � say their health improved due to their HMO
              doctors and HMOS                                    care




Almost one-third of disenroUees left solely for administr~”ve reasons; the remainder
voiced more criticism of their HMO expen”ence.

Responses from the 29% of disenrollees who left their HMOS for administrative
reasons25 tended to dilute the criticism of other disenrollees. Administrative reasons
refer to business or procedural actions rather than to beneficiary choice. Table 15 shows


                                                    17
non-administmtive disenrollees were substantially more negative than administrative
disenrollees regarding their experience with appeal rights, effectiveness of HMO care,
waiting time for appointments, and personal treatment received from the primary HMO
doctor and the HMO. It also illustrates the moderating effect that the responses from
administrative disenrollees have on the disenrollee data as a whole.


                   Table 15: Admhistrative    and Non-AMinistrative      Dkenrolhnents

                                                               All            Admin.      Non-Adrnk.
                                                          Disenrollees      Dkenrollees   Dkenrollees
 Would have appealed HMO’s refusal to provide/pay             43%              22%           55%
 for services if had known about rights.                     (2,603)           (474)        (2,129)
                                                              32%              42%           26%
 HMO did not refuse to paylprovide for services              (1,917)           (886)        (1,031)

 Medical care received through the HMO caused their
 health to:
                                                              21?%              12%           25%
          b become worse                                     (4,365)           (721)        (3,642)
                                                              33%               52%           25%
          �   improve                                        (6,747)          (3,153)       (3,593)

 Usually waited more than an hour in the office before        22%                14%          25%
 seeing their primary HMO doctors.                           (4,369)            (811)        (3,557)

 Usually waited 13 to more than 20 days for                   27%               19%           31%
 appointment with specialist.                                (4,092)            (848)        (3,244)

  Primary HMO doctor did not take health complaints           36%               26%           40%
  seriously.                                                 (7,288)           (1,549)       (5,740)

  Holding down the cost of care was most important to:
                                                              26%                8%           34%
          �   Pri~rY HMO doctor                              (5,445)            (463)        (4,982)
                                                              34%                14%          42%
          �   the HMO                                        (6,928)            (818)        (6, 110)



REASONS FOR LEAVING AN HMO


Both disenrollees and enrollees provided their reasons for leaving an HMO. Their

personal preferences in a health care delivery system and their perceptions of access to

services through the HMO constituted two non-administrative categories of reasons for

leaving (see Table 16). As previously mentioned, 29% of disenrollees mentioned

administrative reasons ,26 such as moving out of the HMO service area (25%), their

HMOS no longer participating as a Medicare risk HMO or in their companies’ retirement

plan (6%), or involuntary disenrollments such as late premium payments or clerical error

(3%). Eighteen percent of disenrollees left for administrative reasons ~;     7% left for

administrative reasons fwst, but would have left anyway for other reasons.27

Disenrollees citing administrative reasons only are not included in the following analysis.




                                                    18
Enrollees described disenrollment reasons because they either planned to leave their
HMOS or wanted to leave, but felt they could not (see Table 14).

Before a detailed discussion of beneficiaries’ reasons for leaving an HMO, a summary of
the overall pattern is helpful. Five reasons for leaving an HMO were the most frequently
given and were among those rated most important by both disenrollees and enrollees (see
Table 16).28 Both groups:

       �      didn’t like the choice of primary HMO providers;

       F      believed premiums and/or co-payments were too expensive;

       b      wanted to use the doctors they had before they joined the HMO;

       F      were not allowed to see the specialists they believed they needed to see;

       b      were refused, by their primary HMO doctors, services they believed they

              needed.

Ten items represented the most important disenrollment reasons for 79% of disenrollees; 8
items represented them for 81% of enrollees. While disenrollees’ most important reasons
for leaving were divided between personal preferences and perceived access problems,
enrollees’ reasons for planning/wanting to leave were predominantly personal preferences.
Both groups perceived problems with service access, but disenrollees seemed to feel a
greater impact on their health as a result, i.e., they were getting sicker.


HMO restrictions on providers and services, plus high beneficial expenses, were the
leading disenrollment reasons based on personal preferences for health care delivery.

Within the personal preference category, enrollees and disenrollees most frequently cited
discomfort with the HMO restrictions on providers and services, plus high beneficiary
premiums/co-payments, as reasons for leaving an HMO. Among the top four reasons for
both groups were:

        F      not likingthe choice   of   primary    HMO   doctors,
        F      theirpremiums   and/or co-payments were too expensive,	
        �      a dislikeof going through   the primary HMO doctor to get medical services,

        b      a desire to use the doctor the beneficiary had before joining the HMO.


The most frequent choice for disenrollees (44% - choice of primary HMO doctors) and
enrollees (37 % - going through the primary HMO doctor for services) clearly stood out,
but the other ranked reasons are less differentiated. Also among disenrollees’ top four
reasons was wanting to use another hospital (23%). Personal preferences regarding the
physical aspects of HMOS were chosen by a small percentage of beneficiaries -- difficulty
getting to the HMO (6%), not liking the HMO building (2%), and not liking the HMO’s
location (5%). Encouragement of friends or family to leave was, in fact, a more frequent
choice (7%) than these.




                                                 19
      Table 16: Reasons for Leaving by Disenrollw      and EIWOlleeSWho    Plan/Want to L(xw#9

                                                       Disenrollees                  Enrollees
                                                  Frequency      Most          Frequency      Most
                                                   (Rank)      Imoortant         (Rank)     Important




Didn’t like the choice of primary HMO doctors.    44% (1)      10% (2)          28% (2)     15%(2)
                                                   (9,
                                                     173)       (1,650)         (47,060)     (14,309)

Premium andlor co-payments were too               29% (2)      20% (1)          25% (4)     18% (1)
expensive.                                         (5,895)      (3,221)          (39,140)    (17,087)

Didn’t like going through the primary HMO         23% (3)             *         37% (1)      5% (6)
doctor to get medical services.                     (4,639)                     (59,332)     (4,986)

Wanted to use another hospital.                   23% (3)       7% (4)          12% (7)          *
                                                   (4,709)      (1,122)          (16,996)

Wanted to use the doctor beneficiary had before   22% (4)       7% (4)          27% (3)     14% (3)
(s)he joined the HMO.                              (4,576)      (1,192)          (42,095)    (12,930)

Couldn’t see the same primary HMO doctor           16% (5)            *         17% (6)     10% (5)
every time.                                         (3,331)                      (26,970)    (9,508)

Primary HMO doctor left the HMO.                   14% (6)      5% (5)          10% (8)          *
                                                    (2,833)      (751)           (15,951)

HMO services changed.                              14% (6)            *         18% (5)      4% (7)
                                                    (2,914)                      (27,946)    (3,479)

Friend or relative encouraged beneficiary to       13%(7)             *          7% (9)          *
leave.                                              (2,646)                      (10,580)



Had to wait too long for scheduled                 22% (1)       5% (5)         15% (3)          *
appointments.                                       (4,291)       (747)          (20,355)

Not allowed to see specialists needed.             21% (2)       8% (3)         19% (1)      11%(4)
                                                    (3,956)      (1,338)         (26,265)    (10,318)

Had to wait too long at the office to see the      19% (3)            *         11% (4)          *
doctor.                                             (3,631)                      (14,765)

Was getting sicker because of the care reeeived    19% (3)       7% (4)          4% (7)          *
through the HMO.                                    (3,663)      (1,145)         (5,471)

Couldn’t get services fast enough when very        19% (3)       5% (5)         11% (4)          *
sick.                                               (3,530)       (871)          (14,136)

Making appointments by telephone was too           16%(4)             *          8% (6)          *
difficult.                                          (3,055)                      (11,367)

Primary HMO doctor refused to provide needed       15% (5)       5% (5)         16% (2)       4% (7)
services.                                           (2,946)       (885)          (21,368)     (4,022)

Couldn’t see primary HMO doctor or specialist      14% (6)            *          9% (5)          *
as often as needed.                                 (2,670)                      (12,557)

Too many of needed medical services are not         8% (7)            *          9% (5)          *
covered.                                            (1,569)                      (12,965)
Difficulties with timely appointments and restricted prima~ and specialty care were the
top disenrollment reasons retied to service access.

Perceived access problems, as reasons for leaving, showed some differences between
disenrollees and enrollees as well as some similarities. A telling distinction was 19%
(rank 3) of disenrollees repofied they left because of getting sicker as a result of the care
received through the HMO compared to only 4% (rank 7) of enrollees. However, four
reasons were listed among the top five by both groups:

       �       waiting too long for scheduled appointments,

        F      not being allowed to see the necessary specialists,

        E      waiting too long at the office to see the doctor, and

        F      being unable to get services fast enough when they were very sick.


Disenrollees were 1.5 to 2 times as likely as enrollees to choose the reasons of long office
waits and lack of fast service when very sick. Sixteen percent (rank 2) of enrollees cited,
as a reason for leaving, their primary HMO doctors’ refhsals to provide needed services.
Fifteen percent of disenrollees also chose doctors’ refusals to provide services, but,
because of greater concerns they had in other areas, this reason only ranks fifth for them.


Choice of primary HMO doctors and high beneficiary expenses were the two most
important overall disenrollment reasons for enrollees and disenrollees; the two groups
d~fered on other most impotiant reasons.

Disenrollees varied more in selecting their one most important reason for leaving an
HMO, while enrollees chose fewer reasons, predominantly from the personal preference
category. Both groups chose the same four reasons for leaving (rank 1 to 4) as their one
most important reason:

        F      not liking the choice of primary HMO doctors,

        b      premiums and/or co-payments that were too expensive,

        �      a desire to use the doctor the beneficiary had before joining the HMO, and

        �      not being allowed to see the necessary specialists.


The first three reasons reflect personal preferences, i.e., discomfort with the HMO way of
providing care and financial concerns of the beneficiaries; the fourth, perceived problems
with access to services. Also at rank 4 (7%) among the most important reasons were
disenrollees’ wanting to use another hospital and saying they were getting sicker because
of the care received through the HMO. Of the other most important reasons for leaving
an HMO, disenrollees cited three perceived access problems (long waits for scheduled
appointments, no quick appointments when very sick, and primary HMO doctors refusing
to provide services) and one personal preference concerning a primary HMO doctor (all
rank 5). Enrollees, on the other hand, cited the reverse -- three personal preference
reasons (rank 5 to 7) and one perceived access problem (also rank 7).




                                               21
While beneficiaries mayidentify high premiums/co-payments asareasonforl~vkg,               the
reason may really be high expenses in combination with other areas of dissatisfaction. A
recently published study32 of Medicare risk HMOS reported that more than 90% of both
HMO enrollees and fee-for-service beneficiaries rated various dimensions of their care33
as good or excellent. On virtually every dimension examined except cost, however,
enrollees were significantly less likely than non-enrollees to rate their care as excellent.
Yet, these same enrollees were much more likely to rate their satisfaction with out-of
pocket costs as excellent and identifkxl signillcantly fewer instances of needing various
types of health care for which they did not have coverage. The study concludes that
“Most enrollees . . . seemed to feel that HMOS’ lower costs and wider set of benefits more
than compensated for their lower level of satisfaction with care received. ” When applied
to our data, this finding may mean that as beneficiaries perceive HMO costs are too
expensive, they may become less willing to tolerate other features of HMO care that they
do not like.




                                              22

                     RECOMMENDATIONS

As the health care reform debate continues and a means to control health care costs is
sought, the HMO form of managed care has received increased attention. To provide
further information for the ongoing debate and to assist HCFA in its management of
Medicare risk HMOS, we present these conclusions based on our survey results.

As discussed, beneficiary responses indicate Medicare risk HMOS provided adequate
service access for most beneficiaries who had joined. However, our survey results also
indicate some serious problems with enrollment procedures and service access that we
believe require HCFA’s attention. Our intent here, and in subsequent reports based on
the same survey data, is not to prescribe speciilc corrective actions. Instead, we want to
identify for HCFA, based on information from beneficiaries, areas of the Medicare risk
HMO program apparently needing improvement and to suggest techniques HCFA can use
to further monitor these areas.

Three items need immediate exploration:

b	     Beneficiaries should be better informed about their appeal rights as required
       by Federal standards.   Fully 25% of beneficiaries did not know they could appeal
       their HMOS’ refusals to provide or pay for services. We believe knowl~ge of
       appeal rights is an extremely important issue when viewed in combination with
       lock-in to the HMOS and the fact that 12% of all HMO beneficiaries perceived
       their primary HMO doctors did not take their health complaints seriously.

F	     Service access problems reported by disabled/ESRD beneficiaries need to be
       carefully examined, as they are an especially vulnerable group. Moreover, the
       problems cited in their survey responses parallel February 1994 Congressional
       testimony regarding HMO care of the disabled.34

F	     Medicare risk HMOS should be monitored for inappropriate screening of
       beneficiaries’ health status at application. More than 2 of 5 beneficiaries, who
       could remember, said they were asked at application about their health problems.
       A recently published study35 of Medicare risk HMOS found that these plans
       attract healthier-than-average beneficiaries. While the study concludes t~s
       “appears to be due primarily to self-selection of enrollees, since HMOS must enroll
       an interested Medicare beneficiary, ” our data suggest the possibility of health
       screening and selective enrollment by HMOS, as an alternate explanation.

Several other beneficiary-reported issues of access to services through HMOS merit
examination by HCFA in the near future for possible cause and resolution. The access
issues concern:

 b	    Routine Appointments     -- Some beneficiaries reported having difficulty making
        appointments for services in terms of the days waited for scheduled appointments,


                                             23
       apparently without regard to their health status. Others said they sometimes gave
       up trying to make appointments because of consistently busy telephone lines.

b	     Health Maintenance     -- Some beneficiaries reported being unable to see their
       primary HMO doctors within 1 or 2 days when they felt they were very sick.
       Some also believed their HMO medical care caused their health to worsen.

�	     Refusal of Services -- Some beneficiaries reported they were refised referrals to
       specialists, payments to a doctor or hospital for emergency care, or Medicare
       covered services because the HMO purportedly did not cover them.

Based on our experience with this survey, we suggest consideration of three items as
HCFA conducts field tests of its survey instrument for disenrolling HMO beneficiaries.

F	     Allow disenrollees to communicate as many reasons for leaving the HMO as
       are applicable to their situation. Confiig a beneficiary to only one reason may
       mask underlying problems of which HCFA needs to be aware.

�	     Distinguish   between administrative   and non-administrative   disenrollments.
       Because of the major differences between administrative and non-administrative
       disenrollees, it appears advisable to treat them separately when monitoring
       managed care settings. Also, if disenrollrnent rates are to be a performance
       indicator, HCFA may want to exclude administmtive disenrollments or treat them
       separately.

E	     Conduct these exit surveys by mail with computer generated forms, either
       exclusively or in conjunction with other methods. In this way, as the GHP or
       other data base is updated with disenrollment information, HCFA could routinely
       and systematically collect information from all or a portion of disenrollees.


Additional   Office of Inspector General Work

Other Inspector General reports, either in progress or planned, are also intended to assist
HCFA in its examination and management of HMO issues. From this survey data we
plan to complete an HMO level report showing the distribution, frequency and
characteristics of HMOS relative to the enrollment and access issues reported by
beneficiaries. We also plan to produce a report that explores the value and use of
disenrollment rates as an HMO performance indicator and that analyzes the most
significant reasons for beneficiary disenrollments. Other subjects of future HMO reports
are a determination of how physicians and beneficiaries view their relationship in an HMO
setting and how well Medicare beneficiaries enrolled in HMOS understand their appeal
rights and have them protected.




                                              24

                    AGENCY                COMMENTS
We received comments from the Health Care Financing Administration (HCFA) and the
Assistant Secretary for Planning and Evaluation (ASPE). The fill text of their comments
is in Appendix E.

Health Care Financing Administration

HCFA concurred with the report’s recommendations. However, it noted an apparent
inconsistency between sections of this report and our Summary Report on the same subject
(OEI 06-91-00736) that discuss personal treatment of beneficiaries by their HMOS or
primary HMO doctors. The finding is that 39% of dkenrollees and 12% of enrollees
believed their primary HMO doctors dld not take their health complaints seriously. Of
these beneficiaries, 44% of disenrollees and 36% of enrollees said they encountered this
attitude most to all of the time. We have amended the Summary Report to clarify this
finding.


Assistant Secretary for Planning and Evaluation

ASPE was concerned that our using beneficiary reported data only did not present a
complete picture of Medicare risk HMO operations, and thus, did not put the report
findings in perspective. ASPE suggests that the report should include comparative data
from HCFA monitotig and other research, and an examination of the HMO plans’
brochures and the Medicare Handbook to determine what information is available to
beneficiaries.

Our primary purpose for conducting the beneficia~ survey was to develop another tool
HCFA could use to monitor HMO performance through systematic beneficiary feedback.
Further, our study’s scope was narrowly focused on beneficiaries’ perceived access to
services only, as opposed to beneficiary satisfaction or quaMy of care. We had previously
considered including more discussion of other available information to provide context for
beneficiary responses, as ASPE suggests. However, we chose not to largely because such
discussions would have over-extended an already lengthy report. Instead, we cautioned
readers about the nature and limitations of the data presented, and included the
bibliography for those interested in more detail.

We believe that beneficiary reported information is a valuable indicator of where the
Medicare risk HMO program is working well, or in need of improvement, For example,
25% of beneficiaries reported that they did not know they had appeal rights. As ASPE
notes, HCFA has taken steps to make beneficiaries aware of these rights, e.g. review of
marketing materials and distribution of the Medicare Handbook. Nevertheless, the
beneficiaries themselves, the primary users of that information, have indicated that the
message isn’t getting through.



                                            25

We agree that further exploration of our findings and recommendations is needed before
final action is taken. For example, our recommendation for the disabled/ERSD population
is that HCFA should carefully examine the reported access problems. Part of this
examination would include, as ASPE suggests, reviewing data from other sources (such as
HCFA’s own monitoring efforts) to determine the extent to which such other sources
similarly identify this as a problem area.

All things considered, though, we believe that the three problem areas we identifkd
deserve further examination.




                                            26

                                ENDNOTES

1.	   “Medicare Managed Care Contract Report, ” July 1, 1994, prepared by Office of
      Managed Care, HCFA.

2.	   Penchanskyj Roy, DBA, and J. William Thomas, PhD, “The Concept of Access:
      Definition and Relationship to Consumer Satisfaction, ” Medical Care, February
      1981, 12:2:127-140.

      Thomas, J. William, PhD, and Roy Penchansky, DBA, “Relating Satisfaction With
      Access to Utilization of Services, ” Medical Care, June 1984, 22:6:553-568.

3.    The Penchansky and Thomas five dimensions of access to services are:

      a.    Avaikzbili~ - the relationship of the volume and type of existing services
             (and resources) to the client’s volume and types of need. It refers to the
             adequacy of supply of medical providers, facilities and specialized programs
             and services, such as mental health and emergency care.
      b.     Accessibility - the relationship between the location of supply and the
             location of clients, taking account of client transportation resources and
             travel time, distance and cost.
      c.     Accommodation - the relationship between the manner in which the supply
             resources are organized to accept clients (including appointment systems,
             hours of operation, walk-in facilities, telephone services) and the client’s
             ability to accommodate to these factors and the client’s perception of their
             appropriateness.
      d.     Affordability - The relationship of prices of services and the providers’
             insurance (or deposit requirements) to client’s income, ability to pay and
             existing health insurance. Client perception of worth relative to total cost is
             a concern, as is client knowledge of prices, total cost and possible credit
             arrangements.
      e.     Acceptability - the relationship of clients’ attitudes about personal and
             practice characteristics of providers to the actual characteristics of existing
             providers, as well as to provider attitudes about acceptable personal
             characteristics of clients. In turn, providers have attitudes about the
             preferred attributes of clients or their financing mechanisms. Providers
             may be unwilling to serve certain types of clients or, through
             accommodation, make themselves more or less available.

4.	   Actually, 91 HMOS had risk contracts when the sample was drawn; however, 4
      HMOS did not have any Medicare enrollees during 1991 and 1992.

5.    Disenrollments for reasons other than the beneficiary’s death.




                                            27

6.    Of the 45 HMOS, the model types were 9 group HMOS, 6 staff HMOS, and 30
      individual practice associations (IPA) from 22 States. The distribution of the
      model types among the strata were: Group -2 group HMOS in Strata 1, 4 in
      Strata 2, and 2 in Strata 3; &&f -2 staff HMOs in Strata 1, 1 in Strata 2, and 3 in
      Strata 3; ~A -10 IPAs in Strata 1, 10 in Strata 2, and 10 in Strata 3.

7.    All sampled beneficiaries received a survey in English; 409 also received one in
      Spanish.

8.    Surveys were usable if beneficiaries answered a minimum set of questions or were
      willing to complete the minimum set by telephone. All usable surveys had
      responses for enrollment status as of the sample’s timeframe, receipt of services
      from the sampled HMO, and plans/reasons for leaving the HMO. In addition, if
      beneficiaries had received HMO services, their surveys had to include 5 additional
      responses about their HMO experience from any of the survey’s sections. We
      made 143 follow-up telephone calls to beneficiaries whose surveys were potentially
      usable if we could complete/clarify enrollment status and other key questions.

9.    Using weighted data, the response rate is 74% overall, 75% for enrollees and 58%
      for disenrollees. (See Appendix A.)

10.   For example, suppose 25% of disenrollees answered “yes” to a particular question
      while 50% of enrollees answered “yes.” The interpretation would be that enrollees
      were twice as likely as disenrollees to respond “yes” (i.e., 50% enrollees vs. 25%
      disenrollees). However, because of the disproportionate distribution of enrollees
      and disenrollees, this difference does not necessarily indicate significant statistical
      differences between the groups.

11.   Determined disabled in accordance with the Medicare deftition.

12.   Beneficiaries could select more than one serious condition.

13.   To calculate the approximate N for each cell in the Tables, divide the number in
      parentheses by the percent above it.

14.   The Table below shows that the beneficiaries who have had 1 or more serious
      illnesses, e.g., heart attack, cancer, pneumonia, are more likely to be admitted to
      the hospital and to have higher numbers of doctor visits in a year. This
      information combined with the data in Table 3 suggest that beneficiaries’ perceived
      propensity to use services is influenced by their health status, i.e., the sicker they
      are, the more likely to use services, and their need for the services is real.




                                             28

                               Service Use by Beneficiaries   with Serious Illnesses

                                                    Disenrollees                              Enrollees

                                                 None         1 or more                None           1 or more

        1 to 6 ~    pli~      HMO
        doctor or specialist visits in the       83%           65%                     81%                62%
        last year.                             (10,792)       (3,747)             (420,228)          (165,902)

        7 or more ml primary HMO
        doctor or specialist visits in last      17%           35%                     19%                38%
        year.                                  (2,207)        (2,039)             (97,689)           (103,180)

        Was admitted to hospital while           29%            74%                  34%                79%
        member of sampled HMO.                 (4,804)        (5, 170)            (215,812)          (239,100)



15.   Freeborn, Donald, Clyde Pope, and Bentson McFarland, “Consistently High and
      Low Elderly Users of Medical Care: Executive Summary, ” Center for Health
      Research, Kaiser Permanence, Northwest Region, NCHSR Grant No. HS 05316-
      02, March, 1988.

16.   A composite score calculated for items 3 and 4 in Table 6.

17.   An additional concern is that these indicators are based only on responses from
      beneficiaries who did enroll in an HMO. We cannot know, for this study, the
      experience of those who considered HMO membership, but did not enroll.

18.   Thirty-nine percent (N= 1906) of disenrollees who had 1 or more serious illnesses
      waited from 13 to more than 20 days for a scheduled appointment with a specialist
      compared to 22% (N =2390) of disenrollees who had no serious illnesses. There
      were no differences among enrollees for this.

19.   See this Report’s section on analysis of sub-groups for more details on these
      beneficiaries.

20.   Projected numbers of 3,138 and 8,158 enrollees respectively also had perceived
      this direct encouragement to leave the HMO.

21.   Some literature indicates this attitude toward the older patient is a problem
      generally and is not necessarily confiied to one particular care setting.

22.   The column does not total 100% as a small portion of beneficiaries answered that
      both cost of care and giving the best medical care were most important.

23.   Disabled/ESRD disenrollees also seem to be disproportionately represented in their
      stratum. In the entire sample and in the enrollee stratum, the weighted proportion
      of disabled/ESRD beneficiaries is 3 %. Disabled/ESRD disenrollees account for
      8% of their stratum.


                                                   29

24.    Percents are the proportion of all enrollees who want to leave their HMOS but feel

       they can’t.


25.    Administrative reasons for leaving included moving out of the HMO service area,

       HMOS no longer participating as a Medicare risk HMO or in the companies’

       retirement plan, and involuntary disenrolhnents such as late premium payments or

       clerical error.


26.    Disenrollees could select more than 1 reason.


27.    The remaining 4% of disenrollees did not say whether or not they left for

       administrative reasons only.


28.    When discussing the most frequently mentioned or the most important reasons for

       leaving an HMO, we rank them in descending order by percents. If two or more

       reasons have the same percents, they also have the same rank. Thus, for example,

       the top 4 items, by rank, in a category may actually be more than 4 reasons.


29.    Frequency is ranked within each of the 2 categories of reasons for leaving
 --
       personal preferences and access to services. The most important reason for leaving

       is mnked among M the reasons of both categories. Reasons marked with an

       asterisk were mentioned frequently within their categories, but were not among the

       most important reasons.


30.    Personal preference options chosen by too few beneficiaries to include were: 1)
       getting to the HMO is too difficult, 2) I don’t like the HMO building, 3) I don’t
       like where the HMO is located.

31.    Access to services options chosen by too few beneficiaries to include were: 1) I am
       not allowed to go to the hospital when I need to, 2) the HMO won’t approve
       Medicare covered services that my primary HMO doctor wants me to have, 3) my
       primary HMO doctor, his staff or HMO office staff have encouraged me to leave,
       4) prescription drugs are not covered.

 32.   Brown, Randall S., Dolores Clement, Jerrold Hill, Sheldon Retchin, and Jeanette
       Bergeron, “Do Health Maintenance Organizations Work for Medicare?” Health
       Care Finuncing Review, Fall 1993, 15:1:7-23.

 33.    Measures of the care process (for example, explanations given by their physicians
        or attention they received as a patient), the structure of care (ease of obtaining
        care, waiting times, and ease of seeing the physician of their choice), and the
        perceived quality and outcomes of care (thoroughness of examinations and overall
        results of care received).

 34.    Before the House Select Subcommittee on Education and Civil Rights by a
        representative from the National Council on Independent Living. Medicare and
        Medicaid Guide, No. 789, Commerce Clearing House, February 17, 1994, p. 5.


                                             30

35.   Brown, Randall S., et al., Fall, 1993.




                                           31
                           BIBLIOGRAPHY
Beebe, James, “An outlier pool for Medicare HMO payments, ” Health Care Financing
Revt”ew,Fall 1992, 14:1:59-63.

Bergeron, Jeanette, Randall S. Brown, and Jerrold Hill, final “First Annual Report: The
Evaluation of the TEFRA HMO/CMP Program, ” June 1990, Mathematical Policy
Research, under Health Care Financing Administration contract # 500-88-0006.

Brown, Randall S., Dolores Clement, Jerrold Hill, Sheldon Retchin, and Jeanette
Bergeron, “Do Health Maintenance Organizations Work for Medicare?” Health Care
Financing Review, Fall 1993, 15:1:7-23.

Brown, Randall S., Kathryn Langwell, Katherine Berman, Ann Ciemenecki, Lyle Nelson,
Alisa Schreier, and Anthony Tucker, “Enrollment and Disenrollment in Medicare
Competition Demonstration Plans: A Descriptive Analysis, ” September 15, 1986,
Mathematical Policy Research, under Health Care Financing Adminstration contract # 500-
83-0047.

Cleary, Paul D. and Barbara J. McNeil, “Patient Satisfaction as an Indicator of Quality
Care, ” Inguiry, Spring 1988, 25:25-36.

Clements, Dolores G., Sheldon Retchin, Randall S. Brown, Meribeth H. Stegall, “Access
and Outcomes of Elderly Patients Enrolled in Managed Care, ” Jourrud of the Amen”can
Medical Association, May 18, 1994, 271:19:1487-92.

Dallek, Geraldine, Aileen Harper, Carol Jimenez, Christina Nunez Daw, “Medicare Risk-
Contract HMOS in California: A Study of Marketing, Quality, and Due Process Rights, ”
Medicare Advocacy Project, Inc., January, 1993.

Davies, Allyson Ross, John E. Ware, Jr., Robert H. Brook, Jane R. Peterson and Joseph
P. Newhouse, “Consumer Acceptance of Prepaid and Fee-for-Service Medical Care:
Results from a Randomized Controlled Trial, ” Health Sem”cesResearch, August 1986,
21:3:429-451.

“Disabled Americans Support Universal Health Care Coverage, ” Medicare and Medicaid
Guide, Number 789, Commerce Clearing House, February 17, 1994, p. 5.

Donabedian, Avedis, “The Quality of Care: How Can It Be Assessed?” Jourrud of the
American Medical Association, September 23/30, 1988, 260:12:1743-48.

Franks, Peter, Carolyn M. Clancy and Paul A. Nutting, “Sounding Board: Gatekeeping
Revisited -- Protecting Patients From Overtreatment, ” Z7zeNew Englund Journal of
Medicine, August 6, 1992, 327:6:424-29.



                                            32

Freeborn, Donald, Clyde Pope, and Bentson McFarland, “Consistently High and LOW
Elderly Users of Medical Care: Executive Summary, ” Center for Health Research, Kaiser
Permanence, Northwest Region, NCHSR Grant No. HS 05316-02, March, 1988.

Freudenheim, Milt, “Many Patients Unhappy With H. M. O. S,” Z%eNew York Times,
August 18, 1993.

Griffith, Mary Jane, Nicholas Baloff, and Edward L. Spitznagel, “Utilization Patterns of
Health Maintenance Organization Disenrolle+” Medical Care, September 1984,
22:9:827-833.

Hays, Ron D., “The Quality of Patients’ Ratings -- Letters to the Editor, ” Health A~airs,
Winter, 1988, pp. 174-75.

“HCFA Stresses Commitment to Managed Care, ” Medicare and Medicaid Guide, Number
790, Commerce Clearing House, February 24, 1994, p. 10.

“Health Care in Crisis: Are HMOS The Answer?” C’ornumerRepotis, August 1992, pp.
519-529.

Hellinger, Fred J., “Selection Bias in Health Maintenance Organizations: Analysis of
Recent Evidence, ” Health Care Finuncing Review, Winter 1987, 9:2:55-63.

Hill, Jerrold W., and Randall S. Brown, “Biased Selection in the T13.FRAHMO/CMP
Progmm, ” Final Report of September 21, 1990, Mathematical Policy Research under
Health Care Financing Administmtion contract # 500-88-0006.

Langwell, Kathryn M. and James P. Hadley, “National Evaluation of the Medicare
Competition Demonstmtions - Summary Report, ” January 31, 1989, Mathematical Policy
Research and the David Williamson Institute for Health Studies, Medical College of
Virginia, under Health Care Financing Administration contract # 500-83-0047.

“Legislation Would Encourage Medicare Managed Care Plan Enrollment, ” Medicare and
Medicaid Guide, Number 796, Commerce Clearing House, April 7, 1994, p. 9.

McMillan, James R., “Measuring Consumer Satisfaction to Improve Quality of Care, ”
Health Progress, March 1987, 68:2:54ff.

Office of Inspector General, Department of Health and Human Services, “Marketing
Practices of South Florida HMOS Serving Medicare Beneficiaries, ” OEI-04-9 1-00630,
November 1991.

Office of Inspector General, Department of Health and Human Services, “Miami Area
HMOS: Medicare Enrollment Patterns,” OEI- 04-91-00640, November 1991.




                                            33

Pear, Robert, “Medicare To Stop Pushing Patients to Enter H. M. O.s, ” l?ze New York
Times, December 27, 1993, p. A-1.

Pear, Robert, “Once in Forefront, H. M.O.’s Lose Their Luster in Health Debate, ” Z%e
New York Times, ” August 23, 1994, p. A-10.

Penchansky, Roy, and J. William Thomas, “The Concept of Access: Deftition and
Relationship to Consumer Satisfaction, ” Medical Care, February 1981, 12:2:127-140.

Podolsky, Doug and Joanne Silberner, “llow Ikk&cintt   Mistreats   the Elderly, ” U.S. News
and World Repoti, January 18, 1993, pp. 72-79.

Porell, Frank W., Carolyn Cocotas, Peter J. Perales, Christopher P. Tompkins, and
Mitchell Glavin, “Factors Associated with Disenrollment from Medicare HMOS: Findings
from a Survey of Disenrollees, ” July 1992, Health Care Financing Administmtion and the
Health Policy Research Consortium of Brandeis University under Cooperative Agreement
# 99-C99256/l 1-06.

Prasad, V. Kanti and Rajshekhar G. Javalgi, “Understanding Needs and Concerns of the
Elderly Regarding Medicare Health Maintenance Organizations, ” The Journal of
ConsumerA#airs, Summer, 1992, 26:1:47-67.

“ProPAC Calls for Combined Action to Contain Costs, ” Medicare and Medicaid Guide,
Number 751, Commerce Clearing House, June 11,1993, pp. 4-6.

“Proposed HMO Regs Would Require Beneficiary Post-Contract Protections, ” Medicare
and Medicaid Guide, Number 795, Commerce Clearing House, March 31, 1994, p. 5.

Richardson, David A., James Phillips, Dean Conley, Jr., “A Study of Coverage Denial
Disputes Between Medicare Beneficiaries and HMOS,” Network Design Group, Inc.,
under HCFA Cooperative Agreement No. 17-C-90070/2-01, September 1993.

Riley, Gerald, James Lubitz and Evelyne Rabey, “Enrollee Health Status under Medicare
Risk Contracts: An Analysis of Mortality Rates, ” Health Services Research, June 1991,
26:2:137-163.

Rossiter, Louis F., Kathryn Langwell, Thomas T.H. Wan, and Margaret Rivnyak,
“Patient Satisfaction Among Elderly Enrollees and Disenrollees in Medicare Health
Maintenance Organizations: Results from the National Medicare Competition Evaluation, ”
Journal of the American Medical Association, July 7, 1989, 262:1:57-63.

Rossiter, Louis, Thomas Wan, Kathryn Langwell, James Hadley, Anthony Tucker,
Margaret Rivnyak, Kenneth Sullivan, John Narcross, final analysis report, “National
Medicare Competition Evaluation: An Analysis of Patient Satisfaction for Enrollees and
Disenrollees in Medicare Risk-Based Plans, ” April 1988, Williamson Institute for Health



                                            34
Studies, Medical College of Virginia and Mathematical Policy Research, under contract #
500-83-0047.

Sherrid, Pamela, “Cutting the cost of staying healthy, ” U.S. News and WorZdReport,
January 18, 1993, pp. 80-81.

Sullivan, Louis W., Secretary, Department of Health and Human Resources, final report
“Disenrollment Experience in the Medicare HMO and CMP Risk Program: 1985 to
1988,”1990, based on Mathematical Policy Research study under contract # 500-88-0006.

Thomas, J. William, and Roy Penchansky, “Relating Satisfaction With Access to
Utilization of Services, ” Medical Care, June 1984, 22:6:553-568.

United States General Accounting Office, “Canadian Health Insurance: Lessons for the
United States, ” GAO/HRD-91-90, June 1991.

United States General Accounting Office, “Managed Care: Oregon Program Appears
Successful but Expansions Should Be Implemented Cautiously,” testimony before the
House Subcommittee on Health and the Environment, GAO/T-HRD-91-48, September 16,
1991

United States General Accounting Office, “Medicare: Issues Raised by Florida Health
Maintenance Organization Demonstrations, ” Chapter 5, GAO/HRD-86-97, July 1986.

United States General Accounting Office, “Medicare: PRO Review Does Not Assure
Quality of Care Provided by Risk HMOS,” GAO/HRD-91-48, March 1991.

United States General Accounting Office, “Medicare: HCFA Needs to Take Stronger
Actions Against HMOS Violating Federal Standards, ” GAO/HRD-92-l 1, November 1991.

United States General Accounting Office, “Medicare: Physician Incentive Payments by
Prepaid Health Plans Could Lower Quality of Care, ” GAO/HRD-89-29, December 1988.

United States General Accounting Office, “Medicare: Experience Shows Ways to Improve
Oversight of Health Maintenance Organizations, ” HRD-88-73, August 17, 1988, GAO
report summary.

United States Senate, Special Committee on Aging, Minority Staff Report, “Medicare and
HMOS: A First Look, with Disturbing Findings, ” April 7, 1987.

Ware, John E., Jr. and Ann H. Karrnos, “Volume II - Perceived Health and Patient Role
Propensity,” Development and Valialxion of Scales to Measure PatieruSatisfaction with
Health Care Services, prepared for National Center for Health Services Research, Public
Health Service, 1976. National Technical Information Service, Publication No. PB-288-
331.



                                           35

Ware, John E., Jr., W. Russell Wright, and Mary K. Snyder, “Volume IV - Key Health
Concepts; Methodological Appendix, ” Development and Validation of Scales to Measure
Patient Satisfaction wl”thHealth Care Services, prepared for National Center for Health
Services Research, Public Health Service, 1976. National Technical Information Service,
Publication No. PB-288-333.




                                           36

